No. 20-480
IN THE

Supreme Court of the United States
DAVID BABCOCK,
Petitioner,
v.
KILOLO KIJAKAZI, ACTING COMMISSIONER OF SOCIAL SECURITY,
Respondent.

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rules 29.3 and 29.5(b), I, Neal Kumar Katyal, a
member of the Bar of this Court, hereby certify that on August 5, 2021, a copy of the
foregoing Application for an Extension of Time To File Reply Brief was served by firstclass U.S. mail, postage prepaid, to the following counsel:
ELIZABETH B. PRELOGAR
Acting Solicitor General
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, N.W.
Room 5616
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
Counsel for Respondent

I further certify that all parties required to be served have been served.

Date: August 5, 2021

/s/ Neal Kumar Katyal
Neal Kumar Katyal

